APPENDIX

-iaTABLE OF CONTENTS
Appendix Page
Unpublished Opinion of
The United States Court of Appeals
For the Fourth Circuit
Re: Affirming the Criminal Judgment against Appellants
entered May 28, 2020 ........................................................................................ 1a
Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered May 28, 2020 ...................................................................................... 36a
Judgment in a Criminal Case of
The United States District Court for
The Eastern District of Virginia
entered July 6, 2018 ........................................................................................ 39a
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing En Banc
entered August 3, 2020 ................................................................................... 46a

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 1 of 35

1a

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4447
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DUBLAS ARISTIDES LAZO, a/k/a Caballo,
Defendant.

No. 18-4449
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
LELIS EZEQUIEL TREMINIO-TOBAR, a/k/a Scooby, a/k/a Decente,
Defendant - Appellant.

No. 18-4495
UNITED STATES OF AMERICA,
Plaintiff - Appellee,

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 2 of 35

2a

v.
DANIEL OSWALDO FLORES-MARAVILLA, a/k/a Impaciente, a/k/a Flaco,
Defendant - Appellant.

No. 18-4496
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
JUAN CARLOS GUADRON-RODRIGUEZ,
Defendant - Appellant.

No. 18-4509
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ANDRES ALEXANDER VELASQUEZ GUEVARA, a/k/a Pechada,
Defendant - Appellant.

No. 18-4512
UNITED STATES OF AMERICA,
2

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 3 of 35

3a

Plaintiff - Appellee,
v.
CARLOS JOSE BENITEZ PEREIRA, a/k/a Negro,
Defendant - Appellant.

Appeals from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, Senior District Judge. (1:16-cr-00209-LO-4; 1:16-cr-00209LO-5; 1:16-cr-00209-LO-7; 1:16-cr-00209-LO-2; 1:16-cr-00209-LO-8; 1:16-cr-00209LO-6)
Submitted: April 22, 2020

Decided: May 28, 2020

Before THACKER, HARRIS, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Paul B. Vangellow, Falls Church, Virginia; Andrew M. Stewart, DENNIS, STEWART &
KRISCHER, PLLC, Arlington, Virginia; Robert L. Jenkins, Jr., BYNUM & JENKINS,
PLLC, Alexandria, Virginia; Christopher B. Amolsch, Reston, Virginia; Frank Salvato,
Alexandria, Virginia; Joseph R. Conte, LAW OFFICE OF J.R. CONTE, Washington,
D.C.; Vernida R. Chaney, CHANEY LAW FIRM, PLLC, Fairfax, Virginia; Pleasant S.
Brodnax, III, Washington, D.C.; Charles J. Soschin, LAW OFFICE OF C.J. SOSCHIN,
Washington, D.C.; Lavonda N. Graham-Williams, Alexandria, Virginia, for Appellants.
G. Zachary Terwilliger, United States Attorney, Daniel T. Young, Assistant United States
Attorney, Aidan Taft Grano, Assistant United States Attorney, Patricia T. Giles, Assistant
United States Attorney, Morris R. Parker, Jr., Assistant United States Attorney, OFFICE
OF THE UNITED STATES ATTORNEY, Alexandria, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

3

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 4 of 35

4a

PER CURIAM:
In these consolidated cases, five members of La Mara Salvatrucha (MS-13) and one
non-member appeal from their respective criminal judgments after a jury convicted
Appellants of various charges related to their early 2016 participation in and support of
MS-13. Juan Carlos Guadron-Rodriguez was convicted of conspiracy to use interstate
facilities in aid of extortion, as well as substantive extortion counts, in violation of 18
U.S.C. §§ 371, 1952(a)(3) (2018); Andres Alexander Velasquez Guevara was convicted of
conspiracy to commit kidnapping, in violation of 18 U.S.C. § 1201(a)(1) (2018); and
Carlos Jose Benitez Pereira, Lelis Ezequiel Treminio-Tobar, Daniel Oswaldo FloresMaravilla, and Dublas Aristides Lazo were convicted of conspiracy to commit kidnapping,
in violation of 18 U.S.C. § 1201(c) (2018), conspiracy to commit kidnapping and murder
in aid of racketeering, in violation of 18 U.S.C. § 1959(a)(5) (2018); and kidnapping
resulting in death, in violation of 18 U.S.C. §§ 2, 1201(a)(1) (2018).
The conspiracy and substantive charges against Appellants stem from two MS-13
schemes. First, several MS-13 members extorted Johnny Reyes by repeatedly making him
pay “rent” to the gang, in one instance holding a gun to his head and threatening his life if
he did not make the required payments. Second, members of the gang kidnapped and
murdered a rival gang member, Carlos Otero-Henriquez, by luring him into a vehicle under

4

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 5 of 35

5a

the false pretense of taking him to a party. But instead of a party, they drove him to a
remote area and stabbed him 51 times before dumping his mutilated body into a ravine. 1
Guadron-Rodriguez and Velasquez Guevara assign error to the joinder of and the
district court’s refusal to sever the counts against them from the counts with which they
were not charged. All Appellants assert the court erred when it refused to authorize a jury
questionnaire or allow counsel to conduct individualized voir dire. Appellants also assign
error to: (1) the court’s refusal to admit evidence they insist established that OteroHenriquez was not “inveigled” as required under the federal kidnapping statute; (2) the
propriety of the court’s jury instructions regarding the elements necessary to establish a
violation of § 1952(a)(3) and the duress affirmative defense; and (3) the court’s denial of a
motion for mistrial and subsequent refusal to provide a curative instruction to the jury.
Treminio-Tobar and Benitez Pereira assert that their life sentences violate the Eighth
Amendment, Guadron-Rodriguez assigns error to the court’s rejection of his objections to
his Sentencing Guidelines range calculation, and Velasquez Guevara asserts that his life
sentence is substantively unreasonable. Finding no error, we affirm.
I.

Severance and Joinder
Velasquez Guevara asserts that, because he was only charged with conspiracy to

commit kidnapping, the charges pertaining to the Reyes extortion were improperly joined

1

Others charged in these indictments entered guilty pleas before trial: Manuel
Antonio Centeno pled guilty to kidnapping resulting in death; Wilmar Javier VieraGonzalez pled guilty to charges of interstate facilities use conspiracy and kidnapping
resulting in death; and Shannon Marie Sanchez pled guilty to being an accessory after-thefact, in violation of 18 U.S.C. § 3 (2018).
5

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 6 of 35

6a

in the same indictment. Guadron-Rodriguez similarly asserts that because he was only
charged with the Reyes extortion counts, the counts related to kidnapping and murder were
improperly joined and, alternatively, should have been severed by the district court.
The joinder of multiple offenses is proper under Fed. R. Crim. P. 8(a) if the offenses
are: (1) of the same or similar character; (2) based on the same act or transaction; or (3)
part of a common scheme or plan. See United States v. Foutz, 540 F.2d 733, 736 (4th Cir.
1976). Rule 8 also permits defendants to be joined in the same action if “they are alleged
to have participated in the same act or transaction, or in the same series of acts or
transactions, constituting an offense or offenses.” Fed. R. Crim. P. 8(b). Separate offenses
are considered acts within the same series “if they arise out of a common plan or
scheme . . . unified by some substantial identity of facts or participants.” United States v.
Porter, 821 F.2d 968, 972 (4th Cir. 1987). We recently observed that “Rule 8 permits very
broad joinder at the pleading stage.’” United States v. Cannady, 924 F.3d 94, 102 (4th Cir.
2019) (internal quotation marks, ellipses, and brackets omitted).
Even if offenses are properly joined, however, severance is appropriate if the
defendant establishes that he would be prejudiced by the joinder. See Fed. R. Crim. P.
14(a).

A defendant moving to sever counts in an indictment has the burden of

demonstrating a “strong showing of prejudice,” however, and “it is not enough to simply
show that joinder makes for a more difficult defense.” United States v. Goldman, 750 F.2d
1221, 1225 (4th Cir. 1984). “The fact that a separate trial might offer a better chance of
acquittal is not a sufficient ground for severance.” Id. Accordingly, a district court should
grant a severance motion “only if there is a serious risk that a joint trial would compromise
6

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 7 of 35

7a

a specific trial right of one of the defendants, or prevent the jury from making a reliable
judgment about guilt or innocence.” United States v. Qazah, 810 F.3d 879, 891 (4th Cir.
2015).
“We review de novo the district court’s refusal to grant defendants’ misjoinder
motion to determine if the initial joinder of the offenses and defendants was proper under
[Rule] 8(a) and 8(b) respectively.” United States v. Mackins, 315 F.3d 399, 412 (4th Cir.
2003). If joinder was improper, we review the error for harmlessness and will “reverse
unless the misjoinder resulted in no actual prejudice to the defendants because it had no
substantial and injurious effect or influence in determining the jury’s verdict.” Id. (internal
quotation marks and brackets omitted). If we determine that joinder was proper, we then
examine whether “the district court abused its discretion under [Rule] 14 in denying [the]
pre-trial motion[] to sever.” Id. Even if we conclude that an abuse of discretion occurred,
we will only vacate a defendant’s conviction when there has been a showing of “clear
prejudice[.]” United States v. Zelaya, 908 F.3d 920, 929 (4th Cir. 2018), cert. denied, 139
S. Ct. 855 (2019).
Appellants’ arguments to the contrary, the extortion, kidnapping, and murder
charges in the indictment arose from the same “common scheme”—i.e., the effort to
promote MS-13 and to gain status within the gang by extortion and violence. The
indictment alleged that all individuals charged were members and associates of the MS-13
Virginia Locos Salvatrucha (“VLS”) clique and that, as members and associates, all were
required to use violence, threats of violence, and intimidation to support the gang and to

7

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 8 of 35

8a

protect the power, reputation, and territory of the gang. The indictment also alleged that
members were expected to obtain money through illegal means, including extortion.
The extortion conspiracy count linked the violent and pecuniary aspects of the
gang’s activities by alleging that Guadron-Rodriguez and others conspired to extort money
by threatening violence and death to Reyes and his family. And the conspiracy to commit
murder and kidnapping in aid of racketeering count alleged that MS-13 works to promote
and enhance itself and the activities of its members and associates by committing crimes,
including, but not limited to, murder, and that the gang confronts and retaliates against rival
gangs through violence, threats of violence, and intimidation. 2
The joinder of charges related to the gang’s extortion, kidnapping, and murder was
thus consistent with cases where a single indictment has charged codefendants with
offenses relating to a single overarching drug- and or gang-related enterprise. See, e.g.,
United States v. Mouzone, 687 F.3d 207, 219 (4th Cir. 2012) (affirming joinder of RICO
and drug distribution counts, albeit against a single defendant, where “the government
presented ample evidence showing that selling drugs was an activity in which [gang]
members engaged to support the gang and rise in its ranks”).
Even if the district court abused its discretion when it denied Guadron-Rodriguez’s
and Velasquez Guevara’s motions to sever the charges against them, neither Appellant has

2

While Appellants also challenge the indictment’s inclusion of the unlawful reentry
charge against Centeno, Centeno was not tried alongside Appellants. Because the
Government presented no evidence regarding this offense at trial, Appellants were not
prejudiced by inclusion of the reentry count. See Goldman, 750 F.2d at 1225.
8

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 9 of 35

9a

shown “clear prejudice” to justify vacating their convictions. Velasquez Guevara claims
that because he did not directly participate in Otero-Henriquez’s murder, it was prejudicial
for him to be tried for conspiring to commit kidnapping alongside the individuals who
actually conducted the kidnapping and murder. But Velasquez Guevara knowingly lured
Otero-Henriquez to his death and his lack of active participation rendered him no less
culpable than his coconspirators. See, e.g., United States v. Dinkins, 691 F.3d 358 (4th Cir.
2012) (affirming the denial of a severance motion even where the evidence at trial involved
murders with which not all defendants were charged because all defendants were charged
with at least one murder and there was not a significant enough difference in their “degrees
of culpability” to raise the specter of prejudice).
Guadron-Rodriguez, who was charged only in connection with the extortion
scheme, argues that he should have been severed from the kidnapping and murder scheme.
Without a severance, he claims, there was a risk of impermissible spillover prejudice. But
the district court recognized the possibility of spillover prejudice in denying GuadronRodriguez’s severance motion, acknowledging that Guadron-Rodriguez faced the most
concrete possibility of being prejudiced by the testimony relating to the homicide. The
court nonetheless concluded that all aspects of the case, including the extortion of Reyes,
arose from one overarching conspiracy by members of this MS-13 clique.
The district court also reasoned that the jury would have no difficulty identifying
the separate charges against each individual, and especially Guadron-Rodriguez, and that
its instructions focusing the jury on the individual culpability and the consideration they
must make as to each count as to each defendant would sufficiently protect him. We find
9

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 10 of 35

10a

that the court’s observations are fully supported by the record. See United States v. Chong
Lam, 677 F.3d 190, 204 (4th Cir. 2012) (recognizing that “juries are presumed to follow
their instructions”) (internal quotation marks and citations omitted); accord Mouzone, 687
F.3d 207 at 219 (declining to find prejudice where “the district court instructed the jury to
weigh the evidence as to each count individually”).
Because joinder was not improper, and in light of Velasquez Guevara’s and
Guadron-Rodriguez’s failure to meet the demanding burden of demonstrating a “strong
showing” that they were prejudiced by the joinder so as to require severance, we discern
no reversible error stemming from the district court’s refusal to sever the charges against
those Appellants.
II.

Voir Dire
Appellants assert that the district court conducted an inadequate voir dire and

erroneously denied their motions for authorization of a jury questionnaire and for
individualized voir dire. Alleging that the President had recently condemned all who
claimed membership in MS-13 and conflated illegal immigrants of Hispanic origin with
MS-13 membership, Appellants insist potential jurors may have concluded that mere
membership in MS-13 made them guilty. Thus, seating an impartial jury required,
according to Appellants, using a jury questionnaire and individual voir dire .
“Voir dire plays an essential role in guaranteeing a criminal defendant’s Sixth
Amendment right to an impartial jury, in that it enables the court to select an impartial jury
and assists counsel in exercising peremptory challenges.” United States v. Jeffery, 631
F.3d 669, 673 (4th Cir. 2011) (internal quotation marks and citations omitted). “Despite
10

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 11 of 35

11a

its importance, however, the adequacy of voir dire is not easily subject to appellate review.”
Id. (internal quotation marks and citations omitted). This is so because “[j]ury selection .
. . is particularly within the province of the trial judge” and “[n]o hard-and-fast formula
dictates the necessary depth or breadth of voir dire.” Skilling v. United States, 561 U.S.
358, 386 (2010) (internal quotation marks and citations omitted).
In fact, “[t]he Supreme Court has not required specific voir dire questions except in
very limited circumstances—capital cases and cases where racial or ethnic issues are
inextricably bound up with the conduct of the trial such that inquiry into racial or ethnic
prejudice of the jurors is constitutionally mandated[.]” Jeffery, 631 F.3d at 673 (internal
quotation marks and citations omitted). “In non-capital cases . . . with no issues of racial
or ethnic prejudice, the district court need not pursue a specific line of questioning on voir
dire, provided the voir dire as a whole is reasonably sufficient to uncover bias or partiality
in the venire.” Id. at 673-74 (internal quotation marks and citations omitted).
Because “[t]he conduct of voir dire necessarily is committed to the sound discretion
of the trial court[,]” United States v. Lancaster, 96 F.3d 734, 738 (4th Cir. 1996) (en banc),
we review for abuse of discretion, see United States v. Caro, 597 F.3d 608, 613 (4th Cir.
2010). “A district court abuses its discretion . . . if the voir dire does not provide a
reasonable assurance that prejudice would be discovered if present.” Lancaster, 96 F.3d
at 740 (internal quotation marks and citations omitted). Discretion is also abused when a
voir dire procedure renders a “defendant’s trial fundamentally unfair.” Skilling, 561 U.S.
at 387 n.20 (internal quotation marks and citations omitted).

11

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 12 of 35

12a

Appellants have not established that the district court abused its broad discretion by
failing to allow the questionnaire to be submitted to the jury and refusing counsel-directed
voir dire. This case was not a capital case. Although Appellants suggest that racial or
ethnic issues existed, the district court—when it orally denied the motions—assured
defense counsel it would be necessary to ask about recent publicity and that it would be
obtaining questions from defense counsel and the Government. The district court’s own
questioning took great efforts to root out potential biases during its voir dire. The court
explained to the potential jurors that the case involved violent acts, including murder. And
it asked several standard questions designed to root out potential bias against criminal
defendants or in favor of law enforcement witnesses, including probing the potential jurors’
ties to law enforcement, experience as crime victims, exposure to the criminal justice
system, and involvement or experience with gangs or gang members. The district court
then individually questioned venire members who answered “yes” to these questions,
including asking crime victims about the race or ethnicity of their respective offenders and
whether that particular juror could remain impartial.
The court next explained to the potential jurors that the case involved the MS-13
street gang and that it was critical that any jurors chosen to serve be able to adjudicate the
case without bias. After acknowledging that most of the potential jurors had likely heard
or read about gang violence in their area, including MS-13 gang activities, the court
referenced the President’s State of the Union Address in which the President mentioned
gang violence. The court explained, however, that nothing they heard or read about had
anything to do with the defendants in the case before them and that the court was certain
12

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 13 of 35

13a

everyone could recognize that merely associating with a gang is not a crime. Indeed, the
district court warned of the dangers of racial prejudice and national origin bias, admonished
that it would be inappropriate to decide the case based on an opinion about immigration,
and explained that it would be necessary to decide the case impartially despite the violent
acts charged in the indictment. After so explaining, the district court asked whether any
panel members felt that they could not decide the case fairly. It also asked the defense
attorneys if they had any additional proposed questions, explaining that it had considered
the proffered questionnaire in formulating its voir dire but asking whether there were any
others counsel wanted the court to ask. See Rosales-Lopez v. United States, 451 U.S. 182,
189 (1981) (noting the district court’s broad discretion in conducting voir dire and
concluding that the court may limit counsel’s participation to the submission of additional
questions); see also United States v. Skilling, 561 U.S. 358, 372-73 (2010) (discussing the
trial judge’s rejection of the need for questioning by counsel because of the pretrial
publicity and noting the trial judge’s explanation that jurors provide more forthcoming
responses to judge-led questioning).
In fact, two potential jurors later expressed concern about their respective biases,
which demonstrates that the court’s questioning was effective in identifying the potential
for bias about which Appellants complain. Voir dire is a process by which the parties learn
about prospective jurors so as to exercise challenges in an intelligent manner. United States
v. Brown, 799 F.2d 134, 135 (4th Cir. 1986). Thus, while a voir dire that impairs a
defendant’s ability to exercise his challenges intelligently is grounds for reversal, see
United States v. Rucker, 557 F.2d 1046, 1048 (4th Cir. 1977), the district court’s voir dire
13

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 14 of 35

14a

in this case consisted of questions aimed at rooting out any biases that Appellants’ proposed
questionnaire sought to discover. We, therefore, discern no abuse of discretion in the way
the court conducted, or the substance of, the court’s voir dire.
III.

Evidence Exclusion
The Appellants convicted of kidnapping and murder assign error to the district

court’s exclusion of certain evidence they argue would have demonstrated that OteroHenriquez willfully engaged with MS-13 on the night he was killed.

Because the

Government was required to establish that Otero-Henriquez was somehow tricked or
“inveigle[d]” into boarding the vehicle the night he was murdered, evidence that OteroHenriquez knowingly entered the vehicle to investigate whether the occupants were
responsible for threats and other activities directed towards him and another gang should
have been admitted. We review a district court’s evidentiary rulings for an abuse of
discretion and will only overturn a ruling that is arbitrary and irrational. United States v.
Farrell, 921 F.3d 116, 143 (4th Cir.), cert. denied, 140 S. Ct. 269 (2019). Even if there is
error, “we will not vacate a conviction if an error was harmless.” United States v.
Sutherland, 921 F.3d 421, 429 (4th Cir. 2019), cert. denied, 140 S. Ct. 1106 (2020). We
discern no reversible error in the challenged evidentiary rulings.
The federal kidnapping statute under which several of the Appellants were
convicted provides that “[w]hoever unlawfully seizes, confines, inveigles, decoys, kidnaps,
abducts, or carries away and holds for ransom or reward . . . when . . . the person is willfully
transported in interstate . . . shall be punished by imprisonment for any term of years or for
life and, if the death of any person results, shall be punished by death or life imprisonment.”
14

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 15 of 35

15a

18 U.S.C. § 1201. The district court thus correctly instructed the jury that, to convict
Appellants of violating this statute, the Government had to prove that: (i) Appellants
unlawfully and willfully seized, confined, inveigled, decoyed, kidnapped, abducted, or
carried away another person; (ii) the person was willfully transported in interstate
commerce; (iii) Appellants held that person for ransom, reward, or other benefit or reason;
and (iv) the person’s death resulted. The court also correctly explained that to “inveigle”
or “decoy” means to lure, or entice, or to lead a person astray by false representations, or
promises, or other deceitful means.
While the parties do not dispute the validity of the district court’s jury instructions
on the elements necessary to establish the kidnapping violation, they debate whether OteroHenriquez’s state of mind was relevant.

But the evidence presented at trial

overwhelmingly established that Otero-Henriquez was brought to a particular location on
May 21, 2016, and then transported to the location of his murder under the false pretense
that he would be going to a party where girls would be present. And it was under those
false pretenses that Otero-Henriquez agreed to accompany Appellants that evening, no
matter if he also intended to gather information about the rival gang. As this court has
held, “a kidnapping victim who accepted a ride from someone who misled her into
believing that she would be taken to her desired destination was ‘inveigled’ or ‘decoyed’
within the meaning of the federal kidnapping statute.” United States v. Hughes, 716 F.2d
234, 239 (4th Cir. 1983). We therefore discern no abuse of discretion in the district court’s
decision to exclude the evidence.
IV.

Jury Instructions
15

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 16 of 35

16a

Treminio-Tobar, Benitez Pereira, and Flores-Maravilla assign reversible error to the
substance of the district court’s jury instruction on the duress affirmative defense.
Guadron-Rodriguez also assigns reversible error to the district court’s jury instruction
setting forth the elements that the Government had to establish before the jury could find
him guilty of violating 18 U.S.C. § 1952(a)(3) (“the Travel Act”). A district court’s
“decision to give (or not to give) a jury instruction . . . [is generally] reviewed for abuse of
discretion.” United States v. Russell, 971 F.2d 1098, 1107 (4th Cir. 1992). A jury
instruction is not erroneous if, “in light of the whole record, [it] adequately informed the
jury of the controlling legal principles without misleading or confusing the jury to the
prejudice of the objecting party.” United States v. Miltier, 882 F.3d 81, 89 (4th Cir.)
(internal quotation marks and citations omitted), cert. denied, 139 S. Ct. 130 (2018). Thus,
in reviewing a challenge to jury instructions, “we do not view a single instruction in
isolation[,]” but instead “consider whether taken as a whole and in the context of the entire
charge, the instructions accurately and fairly state the controlling law.” United States v.
Blankenship, 846 F.3d 663, 670-71 (4th Cir. 2017) (internal quotation marks and citations
omitted).
A.

Duress Affirmative Defense

At trial, Treminio-Tobar, Benitez Pereira, and Flores-Maravilla predicated their
defenses on their assertion that they participated in the charged conduct under duress or
coercion. Appellants thus proposed a duress jury instruction, which they obtained from
O’Malley, Grenig and Lee’s Federal Jury Practice and Instructions (“the O’Malley
instruction”). The Government objected to any instruction being given but argued that, if
16

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 17 of 35

17a

one was to be given, it should reflect all elements of the defense in accordance with this
Court’s decision in United States v. Perrin, 45 F.3d 869 (4th Cir. 1995) (“the Perrin
instruction”). The district court acknowledged that, while it may have given the O’Malley
instruction in the past, it believed the Government’s proposed instruction clearly reflected
language beyond that identified in O’Malley.
Appellants now assert that the duress instruction given by the district court was
faulty as a matter of law and deprived them of a fair trial because the instruction: (1) lacked
necessary verdict-directing language informing the jury that it had to find defendants not
guilty if they determined defendants acted under duress when they committed the alleged
offenses; and (2) failed to define “reckless” and “reasonable legal alternative[,]” which
were included in the court’s instruction. Although Appellants generally objected to the
district court’s use of the Perrin instruction, they failed to make the district court aware
that they believed the instruction was faulty because it lacked verdict-directing language
and contained undefined terms. The Federal Rules of Criminal Procedure state that “[a]
party who objects to any portion of the instructions or to a failure to give a requested
instruction must inform the court of the specific objection and the grounds for the objection
before the jury retires to deliberate.” Fed. R. Crim. P. 30(d). The Rule also provides that
“[f]ailure to object in accordance with this rule precludes appellate review, except as
permitted under Rule 52(b).” Id.
Thus, “[a] party wishing to preserve an exception to a jury instruction must state
distinctly the matter to which he objects and the grounds of his objection.” United States
v. Nicolaou, 180 F.3d 565, 569 (4th Cir. 1999) (internal quotation marks, brackets, and
17

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 18 of 35

18a

citations omitted). If a party objects that it believes certain language pertaining to one
element of a crime should be included in a particular instruction, for example, that party
does not preserve an argument later raised on appeal that different language should also
have been included regarding that element. Id. Accordingly, we review the propriety of
the district court’s decision to issue the Perrin instruction for plain error. Id.
To establish the district court committed plain error in giving the Perrin instruction,
Appellants are required to establish that: “(1) there was error; (2) the error was plain; and
(3) the error affected [their] substantial rights.” United States v. Cowden, 882 F.3d 464,
475 (4th Cir. 2018). Even if Appellants make the required showing, however, “we may
exercise our discretion to correct the error only if the error seriously affects the fairness,
integrity, or public reputation of judicial proceedings.” Id. (internal quotation marks,
brackets, and citations omitted). We discern no plain error by the district court.
1.

Verdict-Directing Language

Appellants concede that we have not yet ruled that verdict-directing language is an
essential component of an affirmative defense instruction and necessary to ensure due
process. Contrary to Appellants’ arguments, however, we have repeatedly held that jury
instructions must be reviewed “as a whole and in the context of the trial,” and we will
affirm so long as the instructions were “not misleading and contained an adequate
statement of the law to guide the jury’s determination[.]” United States v. Scott, 424 F.3d
431, 436 (4th Cir. 2005); see United States v. McQueen, 445 F.3d 757, 759 (4th Cir. 2006)
(“Jury instructions are reviewed to determine whether, taken as a whole, the instructions
fairly state the controlling law.”) (internal quotation marks and citations omitted).
18

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 19 of 35

19a

Accordingly, we will not “view a single instruction in isolation[,]” but instead consider the
instructions “taken as a whole and in the context of the entire charge[.]” United States v.
Raza, 876 F.3d 604, 614 (4th Cir. 2017) (internal quotation marks and citations omitted).
During its charge to the jury, the district court repeatedly instructed the jury that
Appellants were entitled to the presumption of innocence, that the burden is always upon
the prosecution to prove guilt beyond a reasonable doubt, that the burden never shifts to a
defendant, and that, if the jury—after careful and impartial consideration of all the evidence
in the case—has a reasonable doubt that a defendant is guilty of a charge, it must acquit.
Notably, the court’s instructions repeated the reasonable doubt standard and duty to acquit
language multiple times. And, as to the duress instruction, the court correctly informed the
jury that the defendants only needed to establish the justification defense by a
preponderance of evidence and that coercion or duress may provide a legal justification or
excuse for the charged offense. Viewing the district court’s jury instructions in their
totality, we conclude that the jury was well aware it should acquit if it found Appellants
acted under duress. 3
2.

“Recklessly” and “Reasonable Legal Alternative”

We also discern no plain error in the district court’s failure to include language

3

Even if we were to conclude that the omission of verdict-directing language was
error, any error would not be “plain.” See United States v. Ellis, 326 F.3d 593, 598 (4th
Cir. 2003) (holding that “any alleged error . . . cannot be ‘plain’” where the legal issues
before the court were, “at best, largely undecided”); see also United States v. Harris, 890
F.3d 480, 491 (4th Cir. 2018) (“At a minimum, courts of appeals cannot correct an error
pursuant to plain error review unless the error is clear under current law.” (internal
quotation marks, brackets, and citations omitted)).
19

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 20 of 35

20a

defining “recklessly” and “reasonable legal alternative” in the duress instruction. This
court has repeatedly confirmed that district courts receive “much discretion to fashion the
charge.” Id. at 614. Nor is it a per se rule that all terms in jury instructions be expressly
defined. United States v. Walton, 207 F.3d 694, 696-99 (4th Cir. 2000) (en banc)
(recognizing that “[t]here is no constitutional requirement to define reasonable doubt to a
jury” and that even “[t]he Supreme Court has never required trial courts to define the
term”).
Moreover, we find that, in this case, the meaning of the terms “recklessly” and
“reasonable legal alternative” made sense in context. The second element of the Perrin
instruction explained that a defendant has to prove that he did not recklessly place himself
in a situation where he would be forced to engage in criminal conduct. Because the
standard instructs the jury to assess the situation in which the defendant placed himself, the
jury necessarily had to evaluate whether that defendant’s choices were made either
knowing or disregarding a likelihood that he would then be forced to engage in criminal
conduct. Similarly, the plain meaning of “reasonable legal alternative” is evident to jurors
applying common sense as they debate the facts during deliberation. See id. at 699
(observing that definitions involving reasonableness “cannot be divorced from [their]
specific context” and should be left to the jury).
In any event, we find that the district court’s failure to define these terms did not
affect Appellants’ substantial rights. Appellants have never proffered a definition for either
term from any authority of this Court or the Supreme Court. Without an established
definition, Appellants cannot demonstrate that the jury understood—and therefore
20

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 21 of 35

21a

applied—“recklessness” or “reasonable[ness]” standards that were less favorable than the
law required. And, in the absence of such caselaw, Appellants cannot establish that any
error was both plain and affected their substantial rights. Moreover, the Government
presented the jury with overwhelming evidence that Appellants knowingly, not just
recklessly, placed themselves in the vehicle on the night Otero-Henriquez was murdered.
And, while the Government argued to the jury that Appellants had actual knowledge of
Otero-Henriquez’s impending murder, defense counsel for Treminio-Tobar and Benitez
Pereira both focused on their clients’ alleged lack of knowledge during their respective
closing arguments and mentioned that the jury could not convict those individuals merely
by virtue of their association with MS-13. We find that counsels’ focus regarding whether
Appellants knowingly and voluntarily placed themselves in the criminal situation and
whether they were able to escape from it, when viewed in conjunction with the
overwhelming evidence that Appellants were well aware of the gang’s intentions and yet
continued participating in the gang’s activities, shows that Appellants cannot establish that
the jury would have acquitted them had the district court defined “recklessly” and
“reasonable legal alternative.”
B.

Travel Act

The Travel Act makes it unlawful for anyone who “travels in interstate or foreign
commerce or uses the mail or any facility in interstate or foreign commerce, with intent to
. . . (1) distribute the proceeds of any unlawful activity; or (2) commit any crime of violence
to further any unlawful activity; or (3) otherwise promote, manage, establish, carry on, or
facilitate the promotion, management, establishment, or carrying on, of any unlawful
21

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 22 of 35

22a

activity[.]” 18 U.S.C. § 1952(a). During argument regarding jury instructions, counsel for
Guadron-Rodriguez confirmed that she wished to argue during closing that there was no
use of interstate facilities to support a Travel Act conviction because the Government
presented no evidence that Guadron-Rodriguez’s extortion phone calls to Reyes took place
between people in different states. Counsel also objected to the Government’s proposed
jury instruction to the extent that it indicated that the “facilities in interstate commerce”
underlying the Travel Act charges were cellular telephones. The district court noted
counsel’s exception but indicated that it would give the Government’s instruction.
Guadron-Rodriguez assigns error to the court’s ruling on appeal and insists that his
convictions for using interstate facilities in aid of extortion must be vacated. Primarily
relying on two Sixth Circuit cases and this Court’s decision in United States v. LeFaivre,
507 F.2d 1288 (4th Cir. 1974), Guadron-Rodriguez insists that the Travel Act was not
enacted to proscribe purely intrastate activities, such as his conduct in this case. In
LeFaivre, however, we rejected the appellants’ argument that the Travel Act should be
narrowly construed and, thus, its reach limited. Id. at 1293 (“Assuming for the moment
that the post-Rewis decisions relied upon by appellants were correctly decided, we believe
each can be readily explained by factors having nothing to do with a narrow or restricted
reading of the Travel Act.”); see Rewis v. United States, 401 U.S. 808, 811 (1971)
(recognizing that, while “[l]egislative history of the [Travel] Act is limited, [it] does reveal
that § 1952 was aimed primarily at organized crime and, more specifically, at persons who
reside in one State while operating or managing illegal activities located in another”). We
then held that, “when the ordinary meaning of the Travel Act clearly covers an activity, we
22

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 23 of 35

23a

will not read into the Act any requirement that travel in interstate commerce or use of
facilities in interstate commerce be a ‘substantial’ or an ‘integral’ part of the activity.”
LeFaivre, 507 F.2d at 1296-97.
In discussing prior caselaw under the Travel Act, however, we observed that the
Seventh Circuit had taken issue with one of our prior decisions because “‘it suggest[ed]
that [a] check need not actually travel interstate.’” Id. at 1291 n.5 (citing United States v.
Isaacs, 493 F.2d 1124, 1149 (7th Cir. 1974)). We then observed that, in Isaacs, the Seventh
Circuit “pointed out that the statute explicitly requires some actual use of an interstate
facility for the purpose of interstate travel or an interstate transaction, rather than merely
the use of an interstate facility for an intra-state purpose.” Id. And we “acknowledge[d]
the ambiguity[] and agree[d] that there must be some utilization of a facility in an interstate
transaction to invoke the Travel Act.” Id.
Although the above-mentioned statement from LeFaivre does lend some support to
Guadron-Rodriguez’s argument that making purely intrastate cellular telephone calls may
not be punishable under the Travel Act, the Government correctly observes that our
statement—which was in a footnote—had nothing to do with our ultimate decision and,
thus, was mere dicta having no binding effect on this court. See U.S. Nat’l Bank of Or. v.
Indep. Ins. Agents of Am., Inc., 508 U.S. 439, 463 n.11 (1993) (recognizing that, in
determining whether a statement from a prior decision is binding, courts must “distinguish
an opinion’s holding from its dicta”); United States v. Pasquantino, 336 F.3d 321, 328-29
(4th Cir. 2003) (en banc) (noting that certain statements that are “not necessary to decide
the case” are “pure and simple dicta, and, therefore, cannot serve as a source of binding
23

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 24 of 35

24a

authority in American jurisprudence”) (internal quotation marks and citations omitted). No
subsequent decision from this court has cited this language, let alone as a binding statement
of law.
And contrary to Guadron-Rodriguez’s argument and the cited Sixth Circuit
decisions, most cases since LeFaivre have held—or at least suggested—that the Travel Act
applies to the type of “intrastate” conduct at issue here so long as an instrument of interstate
commerce is utilized. See Perrin v. United States, 444 U.S. 37, 39, 49 (1979) (noting, after
repeating the language of § 1952, that the “indictment charged that Perrin and his
codefendants used the facilities of interstate commerce for the purpose of promoting a
commercial bribery scheme” and distinguishing its prior decision in Rewis by pointing out
that “[t]here was no evidence that Rewis had employed interstate facilities to conduct his
numbers operation”) (emphasis added); United States v. Halloran, 821 F.3d 321, 342 (2d
Cir. 2016) (holding that purely intrastate telephone calls trigger § 1952); United States v.
Nader, 542 F.3d 713, 718-20 (9th Cir. 2008) (same); United States v. Baker, 82 F.3d 273,
275-76 (8th Cir. 1996) (holding that intrastate withdrawal from interstate ATM network
triggers § 1952); United States v. Heacock, 31 F.3d 249, 254-55 (5th Cir. 1994) (holding
that intrastate use of the federal mail triggers § 1952); United States v. Riccardelli, 794
F.2d 829, 832-34 (2d Cir. 1986) (same); see also United States v. Nardello, 393 U.S. 286,
293 (1969) (holding that § 1952 “imposes penalties upon any individual crossing state lines
or using interstate facilities for any of the statutorily enumerated offenses”) (emphasis
added).

24

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 25 of 35

25a

A similar line of precedent, interpreting materially identical language, exists for the
Travel Act’s murder-for-hire provision. See 18 U.S.C. § 1958 (2018). When Congress
initially enacted the statute, the substantive criminal prohibition referred to the use of a
facility “in” interstate commerce (like § 1952), while subsection (b) of the statute defined
only a facility “of” interstate commerce. See Nader, 542 F.3d at 720 (describing legislative
history of § 1958).

As a matter of plain meaning, the Fifth Circuit found that the

prepositional phrase “in interstate commerce” modified “facility,” and not “use,” and that
“intrastate use of interstate facilities” both satisfied the statute and cohered with Congress’
Commerce Clause authority. United States v. Marek, 238 F.3d 310, 316-17 (5th Cir. 2001)
(en banc). That court rejected any meaningful distinction between a facility “in” interstate
commerce and one “of” interstate commerce, concluding that the Travel Act—which
includes § 1952—was intended to reach intrastate uses of interstate instrumentalities. Id.
at 319-20. Both the Second and Seventh Circuits later adopted Marek’s reasoning and
concluded that Congress intended to use “in” and “of” interchangeably in the Travel Act
to reach intrastate activity. See United States v. Perez, 414 F.3d 302, 303-05 (2d Cir. 2005);
United States v. Richeson, 338 F.3d 653, 660 (7th Cir. 2003).
Even before Marek, however, this Court held that § 1958 required only the use of
an “interstate telephone service or other commerce facilit[y] with the requisite intent.”
United States v. Coates, 949 F.2d 104, 105 (4th Cir. 1991). And we approvingly cited the
reasoning in Marek and Baker and concluded that Congress has the power under the
Commerce Clause to reach purely intrastate activities involving interstate instrumentalities.
See United States v. Photogrammetric Data Servs., Inc., 259 F.3d 229, 250-52 (4th Cir.
25

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 26 of 35

26a

2001), overruled in part on other grounds by Crawford v. Washington, 541 U.S. 36 (2004).
Given the vast weight of out-of-circuit authority finding that § 1952(a) covers intrastate
use of interstate facilities, and the extensive circuit and out-of-circuit authority at least
indirectly supporting the accuracy of the § 1952(a)-related authority, we affirm GuadronRodriguez’s Travel Act convictions.
V.

Motion for Mistrial
Appellants assert that it was error for the district court to deny their motion for a

mistrial after the Government informed the jury during its closing argument that MS-13
members cannot claim that they acted out of duress. According to Appellants, the First
Amendment guarantees the right to freely associate with others, including gangs, so the
Government’s comments—and the district court’s refusal to provide a curative instruction
regarding the comments—violated that right and deprived them of a fair trial.
“We review a district court’s denial of a motion for mistrial for abuse of discretion”
and will “reverse only under the most extraordinary of circumstances.” Zelaya, 908 F.3d
at 929 (internal quotation marks and citations omitted). When a motion for a mistrial arises
from a claim of prosecutorial misconduct during closing argument, the test for reversible
error has two components: “first, the defendant must show that the prosecutor’s remarks or
conduct were improper and, second, the defendant must show that such remarks or conduct
prejudicially affected his substantial rights so as to deprive him of a fair trial.” United
States v. Scheetz, 293 F.3d 175, 185 (4th Cir. 2002).
In assessing whether reversible error occurred, relevant factors include:

26

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 27 of 35

27a

(1) the degree to which the prosecutor’s remarks had a tendency to mislead
the jury and to prejudice the defendant; (2) whether the remarks were isolated
or extensive; (3) absent the remarks, the strength of competent proof
introduced to establish the guilt of the defendant; (4) whether the comments
were deliberately placed before the jury to divert attention to extraneous
matters; (5) whether the prosecutor’s remarks were invited by improper
conduct of defense counsel; and (6) whether curative instructions were given
to the jury.
Id. at 186. “These factors are examined in the context of the entire trial, and no one factor
is dispositive.” United States v. Lighty, 616 F.3d 321, 361 (4th Cir. 2010). Moreover, the
remedy of a new trial “is reserved for the most egregious cases[.]” United States v. Dudley,
941 F.2d 260, 264 (4th Cir. 1991). We discern no error in the court’s refusal to grant the
motion for a mistrial.
After the court instructed the jury that, to make out a duress defense, Appellants had
to show, in part, that they did not recklessly place themselves in a situation where they
would be forced to engage in criminal conduct, the Government described in its closing
argument how the jury heard numerous witnesses testify about MS-13’s open and notorious
reputation for violence and murder, particularly against rival gang members.

The

Government also noted the absence of evidence that Appellants were unaware of that fact,
were somehow unaware of the fact that MS-13 was a violent gang, and were somehow
unaware that joining MS-13 meant that they were going to be committing crimes. The
Government then concluded its argument on this point by suggesting that, “[b]ecause none
of [the defendants] can prove to you that they were unaware that joining MS-13 meant they
might have to commit crimes, any justification or duress defense fails for that reason
alone.” J.A. 3963.
27

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 28 of 35

28a

We find that the Government’s remarks were not misleading but were merely its
spin on why Appellants could not establish an element of the duress affirmative defense;
to wit: they did not “recklessly place [themselves] in a situation where [they] would be
forced to engage in criminal conduct.” In addition, the challenged statements spanned only
two of nearly 65 transcript pages containing the Government’s closing argument and nearly
40 pages containing its rebuttal argument and, thus, the remarks were not extensive.
Moreover, the Government’s evidence of Appellants’ guilt was overwhelming, and there
is nothing in the record to suggest that the Government’s comments were deliberately
placed before the jury to divert its attention to extraneous matters. Finally, although the
district court did not provide a curative instruction after the Government’s closing
argument, the district court previously instructed the jury that association with MS-13 and
its members, standing alone, is not criminal. These instructions addressed the very concern
Appellants raised in their mistrial motion, and we discern no error in the court’s refusal to
provide a curative instruction. After considering all of these factors, we conclude that the
Government’s remarks during closing “did not so infect the trial with unfairness as to make
the resulting conviction a denial of due process.” Scheetz, 293 F.3d at 186 (internal
quotation marks and citations omitted).
VI.

Sentencing
Some Appellants also challenge their sentences on appeal. Citing Graham v.

Florida, 560 U.S. 48 (2010), and Miller v. Alabama, 567 U.S. 460 (2012), Treminio-Tobar
and Benitez Pereira assert that their life sentences violate the Eighth Amendment.
Guadron-Rodriguez asserts that the district court erroneously calculated his Guidelines
28

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 29 of 35

29a

range. Velasquez Guevara essentially asserts that his life sentence was unjustified and
unwarranted.
“We review a sentence for reasonableness ‘under a deferential abuse-of-discretion
standard[,]’” United States v. McCoy, 804 F.3d 349, 351 (4th Cir. 2015) (quoting Gall v.
United States, 552 U.S. 38, 41 (2007)), and review unpreserved, non-structural sentencing
errors for plain error, see United States v. Lynn, 592 F.3d 572, 575-76 (4th Cir. 2010).
When reviewing a sentence for reasonableness, we must consider both the procedural and
substantive reasonableness of the sentence. See Gall, 552 U.S. at 51. First, this court must
assess whether the district court properly calculated the advisory Guidelines range,
considered the 18 U.S.C. § 3553(a) (2018) factors, analyzed any arguments presented by
the parties, and sufficiently explained the selected sentence. See Gall, 552 U.S. at 49-51;
Lynn, 592 F.3d at 575-76.
Assuming no procedural error is found, “[a]ny sentence that is within or below a
properly calculated Guidelines range is presumptively reasonable[,]” United States v.
Louthian, 756 F.3d 295, 306 (4th Cir. 2014), and “[t]hat presumption can only be rebutted
by showing that the sentence is unreasonable when measured against the . . . § 3553(a)
factors[,]” United States v. Vinson, 852 F.3d 333, 357-58 (4th Cir. 2017) (internal quotation
marks and citations omitted). “[B]ecause district courts are in a superior position to find
facts and judge their import, all sentencing decisions—whether inside, just outside, or
significantly outside the Guidelines range—are entitled to due deference.” United States
v. Spencer, 848 F.3d 324, 327 (4th Cir. 2017) (internal quotation marks and citations
omitted).
29

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 30 of 35

30a

A.

Constitutionality

Treminio-Tobar and Benitez Pereira challenge the constitutionality of their life
sentences by summarily asserting that the mandatory sentence prevented the district court
from being able to make a proportionality determination by considering important
mitigating factors like their roles in the offense, any non-history of violent criminal
behavior, and critical factors pertaining to youth. Appellants further assert that their age
was an especially important consideration because the Supreme Court has held that age
holds a special place in Eighth Amendment jurisprudence.
Contrary to Appellants’ argument, however, the Supreme Court has held that life
sentences do not require individualized consideration under the Eighth Amendment. See
Harmelin v. Michigan, 501 U.S. 957, 994-96 (1991). Admittedly, the Supreme Court has
cautioned that “[a]n offender’s age is relevant to the Eighth Amendment,” Graham, 560
U.S. at 76, and that “mandatory penalties, by their nature, preclude a sentencer from taking
account of an offender’s age[,]” Miller, 567 U.S. at 476. But Treminio-Tobar was 19 years
old at the time of Otero-Henriquez’s murder, and Benitez Pereira was 20 years of age at
that time. Because neither Appellant was a juvenile at the time of Otero-Henriquez’s
murder, their mandatory life sentences do not violate the Eighth Amendment. See United
States v. Chavez, 894 F.3d 593, 609 (4th Cir. 2018) (holding that Miller did not render
mandatory life sentences unconstitutional where defendants were 18 and 19 at the time
they committed their crimes), cert. denied, 139 S. Ct. 278 (2018). We thus reject TreminioTobar’s and Benitez Pereira’s challenge to their sentences.

30

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 31 of 35

31a

B.

Procedural Reasonableness

Guadron-Rodriguez asserts that the court erroneously failed to apply a three-level
mitigating role adjustment to his offense level, under the U.S. Sentencing Guidelines
(“USSG”) § 3B1.2 (2016), and then erroneously increased his offense level, under USSG
§ 2B3.2(b)(1) (2016), because the crimes of which he was convicted involved the threat of
death, bodily injury, or kidnapping, and under USSG § 2B3.2(b)(3)(A)(iii) (2016), because
he brandished or possessed a firearm during the crimes of which he was convicted.
Because both assignments of error pertain to the district court’s factual findings, and since
Guadron-Rodriguez raised these objections in the district court, we review the court’s
sentencing decisions for clear error. See, e.g., United States v. Kiulin, 360 F.3d 456, 463
(4th Cir. 2004) (recognizing that this Court reviews for clear error a district court’s decision
regarding a defendant’s role in the offense).
Although a criminal defendant may receive a two-level reduction for playing a
“minor” role in a conspiracy, see USSG § 3B1.2, the reduction may only be made when
the defendant is a participant “who is less culpable than most other participants, but whose
role could not be described as minimal.” See USSG § 3B1.2 cmt. n.5. The defendant has
the burden of showing by a preponderance of the evidence that he played a mitigating role
in the offense. United States v. Akinkoye, 185 F.3d 192, 202 (4th Cir. 1999).
Guadron-Rodriguez insists that he was the least culpable in the gang’s scheme to
extort Reyes and, therefore, should have received the benefit of the reduction. In deciding
whether a defendant played a minor or minimal role, however, “[t]he critical inquiry is
. . . not just whether the defendant has done fewer ‘bad acts’ than his co-defendants, but
31

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 32 of 35

32a

whether the defendant’s conduct is material or essential to committing the offense.” United
States v. Pratt, 239 F.3d 640, 646 (4th Cir. 2001) (internal quotation marks and citations
omitted). Accordingly, Guadron-Rodriguez being “the least culpable[,]” in and of itself,
did not justify application of the adjustment.
Guadron-Rodriguez also insists that his participation in the extortion conspiracy was
limited because his only role was to retrieve “rent” from Reyes as directed by VieraGonzalez. According to Guadron-Rodriguez, he was not the decisionmaker, did not plan
the conspiracy, and held very little information about the conspiracy. But the district court
expressly found that Guadron-Rodriguez was not a minor player but an equal participant
in the conspiracy. According to the district court, Guadron-Rodriguez was the person who
met with Reyes on three of four occasions and set up the final extortion payment. The
court also found that Guadron-Rodriguez was fully aware of the whole extortion scheme
and even sent the money that he received to gang leaders in El Salvador. We find that the
district court’s conclusion that Guadron-Rodriguez was a primary and significant player in
the extortion scheme is fully supported by the record and, thus, discern no clear error in the
district court’s refusal to apply the two-level minor role adjustment.
Although Guadron-Rodriguez insists that his offense level should not have been
enhanced because he did not know Viera-Gonzalez would point a gun at Reyes or lodge
threats for money, we also discern no clear error in the court’s decision to enhance the
offense level based on threats of violence or firearm possession. Having been presented
with evidence that the crimes of which Guadron-Rodriguez was convicted involved the
threat of violence and, in at least one situation, the brandishing of a firearm by his
32

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 33 of 35

33a

codefendant, we find that the district court correctly rejected Guadron-Rodriguez’s role
enhancement objections. Because the district court’s findings are “plausible in light of the
record viewed in its entirety[,]” we discern no clear error by the district court. United
States v. Robinson, 744 F.3d 293, 300 (4th Cir. 2014) (internal quotation marks and
citations omitted).
C.

Substantive Reasonableness

Velasquez Guevara asserts that his life sentence is substantively unreasonable
because he was not a member of MS-13, was only indicted for conspiracy to commit
kidnapping, played no role in the actual killing of Otero-Henriquez or the gang’s extortion
scheme, and—although his nonmandatory Guidelines range was life in prison—he did not
face a statutory mandatory life sentence like some of his codefendants. Despite Velasquez
Guevara’s attempts to minimize his involvement in Otero-Henriquez’s murder, Velasquez
Guevara was just as responsible for the murder as his codefendants. In fact, it was
Velasquez Guevara who initially—and without prompting from the gang—befriended
Otero-Henriquez, notified the gang about Otero-Henriquez and his involvement in a rival
gang, and agreed to lure—and did lure—Otero-Henriquez to a particular location so that
he could be murdered.
Moreover, in imposing Velasquez Guevara’s sentence, the district court expressly
observed that it believed Velasquez Guevara’s trial testimony to be inherently incredible,
felt that he minimized his own involvement in an attempt to exonerate himself, and that the
evidence established that he knew and understood the MS-13 rules completely. After
listening to Velasquez Guevara’s allocution, in which he professed ignorance of the gang’s
33

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 34 of 35

34a

intent to kill Otero-Henriquez, the court indicated that it did not believe Velasquez Guevara
and that Velasquez Guevara knew from day one what it meant to bring Otero-Henriquez
to the gang and, thus, he put the murder plot in motion. The court concluded that Velasquez
Guevara was as responsible for Otero-Henriquez’s death as every other member of the
group that actually stabbed him.

We will not second-guess the court’s credibility

determinations, which were made after observing Velasquez Guevara’s demeanor. See
United States v. Thompson, 554 F.3d 450, 452 (4th Cir. 2009) (“[W]hen a district court’s
factual finding is based upon assessments of witness credibility, such finding is deserving
of the highest degree of appellate deference.”) (internal quotation marks and citations
omitted).
Although Velasquez Guevara suggests that a lesser sentence was warranted because,
despite his Guidelines range, his statute of conviction allowed for “any term of years or for
life[,]” see 18 U.S.C. § 1201(c), nothing in the district court’s imposition of a life sentence
suggests that it was unaware of the nonmandatory nature of Velasquez Guevara’s
Guidelines range, and Velasquez Guevara does not suggest that the court relied on an
impermissible sentencing factor when it imposed the life sentence. We thus apply the
presumption of reasonableness to the within-Guidelines sentence. See Zelaya, 908 F.3d at
930; see also United States v. Morace, 594 F.3d 340, 346 (4th Cir. 2010) (recognizing that,
even if this Court would have imposed a different sentence, this fact alone will not justify
vacatur of the district court’s sentence).
Based on the foregoing, we affirm the criminal judgments against Appellants. We
dispense with oral argument because the facts and legal contentions are adequately
34

USCA4 Appeal: 18-4449

Doc: 75

Filed: 05/28/2020

Pg: 35 of 35

35a

presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

35

USCA4 Appeal: 18-4449

Doc: 76-2

Filed: 05/28/2020

Pg: 1 of 3

36a

FILED: May 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4447 (L)
(1:16-cr-00209-LO-4)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DUBLAS ARISTIDES LAZO, a/k/a Caballo
Defendant - Appellant
___________________
No. 18-4449
(1:16-cr-00209-LO-5)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
LELIS EZEQUIEL TREMINIO-TOBAR, a/k/a Scooby, a/k/a Decente
Defendant - Appellant
___________________

USCA4 Appeal: 18-4449

Doc: 76-2

Filed: 05/28/2020

Pg: 2 of 3

37a
No. 18-4495
(1:16-cr-00209-LO-7)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DANIEL OSWALDO FLORES-MARAVILLA, a/k/a Impaciente, a/k/a Flaco
Defendant - Appellant
___________________
No. 18-4496
(1:16-cr-00209-LO-2)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JUAN CARLOS GUADRON-RODRIGUEZ
Defendant - Appellant
___________________
No. 18-4509
(1:16-cr-00209-LO-8)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee

USCA4 Appeal: 18-4449

Doc: 76-2

Filed: 05/28/2020

Pg: 3 of 3

38a
v.
ANDRES ALEXANDER VELASQUEZ GUEVARA, a/k/a Pechada
Defendant - Appellant
___________________
No. 18-4512
(1:16-cr-00209-LO-6)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
CARLOS JOSE BENITEZ PEREIRA, a/k/a Negro
Defendant - Appellant
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the judgments of the district
court are affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

39a
Case 1:16-cr-00209-LO Document 471 Filed 07/06/18 Page 1 of 7 PageID# 2922

- 4610 -

40a
Case 1:16-cr-00209-LO Document 471 Filed 07/06/18 Page 2 of 7 PageID# 2923

- 4611 -

41a
Case 1:16-cr-00209-LO Document 471 Filed 07/06/18 Page 3 of 7 PageID# 2924

- 4612 -

42a
Case 1:16-cr-00209-LO Document 471 Filed 07/06/18 Page 4 of 7 PageID# 2925

- 4613 -

43a
Case 1:16-cr-00209-LO Document 471 Filed 07/06/18 Page 5 of 7 PageID# 2926

- 4614 -

44a
Case 1:16-cr-00209-LO Document 471 Filed 07/06/18 Page 6 of 7 PageID# 2927

- 4615 -

45a
Case 1:16-cr-00209-LO Document 471 Filed 07/06/18 Page 7 of 7 PageID# 2928

- 4616 -

USCA4 Appeal: 18-4449

Doc: 91

Filed: 08/03/2020

Pg: 1 of 2

46a
FILED: August 3, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4449
(1:16-cr-00209-LO-5)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
LELIS EZEQUIEL TREMINIO-TOBAR, a/k/a Scooby, a/k/a Decente
Defendant - Appellant
___________________
No. 18-4496
(1:16-cr-00209-LO-2)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JUAN CARLOS GUADRON-RODRIGUEZ
Defendant - Appellant

USCA4 Appeal: 18-4449

Doc: 91

Filed: 08/03/2020

Pg: 2 of 2

47a
___________________
No. 18-4509
(1:16-cr-00209-LO-8)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
ANDRES ALEXANDER VELASQUEZ GUEVARA, a/k/a Pechada
Defendant - Appellant
___________________
ORDER
___________________
The court denies the petitions for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petitions for rehearing en banc.
Entered at the direction of the panel: Judge Thacker, Judge Harris, and Judge
Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

